PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that
on the 30th day of November, 2020, three (3) copies of the Brief Amici Curiae of the
Ethics and Religious Liberty of the Southern Baptist Convention, et al., supporting
the Petitioners’ Petition for a Writ of Certiorari in No. 20-569, Elim Romanian
Pentecostal Church, et al. v. Pritzer, were served by first-class mail, postage prepaid, on the following:
Counsel for Petitioners
Mathew D. Staver
Counsel of Record
Liberty Counsel
PO Box 540774
Orlando, FL 32854
court@lc.org
Counsel for Respondent
Jane Elinor Notz
Counsel of Record
Office of the Attorney General, State of Illinois
100 West Randolph Street, 12th Floor
Chicago, IL 60601
jnotz@atg.state.il.us
/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

